OIG Audit Report GR-90-09-004

Office of Justice Programs Local Law Enforcement Block Grant Awarded to the City of Cudahy, California
Audit Report GR-90-09-004
March 2009
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of a Local Law Enforcement Block grant (2003 LB BX 2639) awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP) to the City of Cudahy, California (Cudahy).  The purpose of the grant was to provide additional police coverage in Cudahy.  OJP awarded Cudahy a total of $27,808 under the Local Law Enforcement Block grant and as of September 30, 2004, Cudahy expended the entire award.
In accordance with our authority under the Inspector General Act, we initially conducted a limited scope survey of Cudahys internal controls over DOJ grant funds.  The objectives of our survey were to:  (1) assess the adequacy of Cudahys internal controls over DOJ grant funds, and (2) identify internal control limitations that represent impediments to effective grant management and accurate financial and progress reporting.  Upon the identification of material weaknesses in Cudahys control activities, we expanded our survey into a full grant audit.
The objective of the audit was to determine whether cost reimbursements claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  We tested Cudahys compliance with essential grant conditions, including budget management and controls, grant expenditures, grant drawdowns, program income, local match funds, and grant reporting.
We found that Cudahy did not comply with grant requirements.  Specifically, Cudahy could not provide us with invoices to support monthly payments made for police services that were to be provided under contract with the Los Angeles County Sheriffs Department.  Neither was there documentation in the files to support matching funds provided by Cudahy.  As a result, we questioned $32,193 as unsupported expenditures.  In addition, Cudahy failed to meet its reporting requirements under the terms and conditions of the grant, first by not submitting its Financial Status Reports to OJP on time, and second, by not submitting any Progress Reports even after repeated requests for these reports by OJP.
We discuss these matters in the Findings and Recommendations Section of this report.  Our audit objective, scope, and methodology appear in Appendix II of this report.
We discuss these matters in the Findings and Recommendations Section of the report.  Additionally, we discussed the results of our audit with Cudahy officials and have included their comments in the report, as applicable.  In addition, we requested written responses to our draft report from Cudahy and OJP, which are included in Appendices III and IV, respectively.  Our audit objective, scope and methodology appear in Appendix II of this report.



 




Return to OIG Home Page